No. 19-932
IN THE

imprente Court of tbe Euiteb btateo

IN RE JULIUS JEROME MURPHY,
Petitioner.

On Petition for a Writ of Habeas Corpus
to the United States Court of Appeals
for the Fifth Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,495 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 24, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

